September 28, 2007



MEMORANDUM FOR:            EMILY STOVER DeROCCO
                           Assistant Secretary for Employment
                            and Training




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit


SUBJECT:                   The Louisiana Department of Labor Paid $51 Million
                           in Hurricane-related Unemployment Benefits on
                           Questionable Claims
                           Management Letter No. 06-07-003-03-315

INTRODUCTION

This Office of Inspector General (OIG) Management Letter is being issued as
part of OIG’s audit in response to the 2005 Gulf Coast hurricanes. The complete
results of the audit will be summarized in a roll-up report.

Only after the information reported in this Management Letter is investigated by
the OIG’s Office of Labor Racketeering and Fraud Investigations and the
Louisiana Department of Labor (LDOL) can a determination be made as to the
legitimacy of the unemployment claims discussed herein.

BACKGROUND

Following the devastating impact of Hurricanes Katrina and Rita, Louisiana was
faced with an unprecedented number of Disaster Unemployment Assistance
(DUA) and Unemployment Compensation (UC) claims. To expedite handling
these claims and delivering benefits to Hurricane victims, LDOL temporarily
removed its basic eligibility review controls.

Those unemployed as a result of Hurricanes Katrina and Rita were eligible for
one of two unemployment benefits programs. The first, State UC, provides
benefits to eligible workers who are unemployed through no fault of their own,
and meet eligibility requirements established by their states. UC benefits are
state funded except for former federal employees. The second, DUA, provides
financial assistance to individuals whose employment or self-employment has
been lost or interrupted as a direct result of a major disaster declared by the
President of the United States. Before an individual can be determined eligible
for DUA, it must be established that the individual is not eligible for regular UC
benefits.

DUA is federally funded by the Federal Emergency Management Agency (FEMA)
through transfer of funding to ETA for allocation of funds to State Workforce
Agencies, such as LDOL. Immediately after all payment activity has been
concluded for a disaster—up to 26 weeks after its declaration—funding should be
closed out and unexpended funds returned to FEMA, via ETA.

An Office of Management and Budget Memorandum for the President’s
Management Council, dated October 13, 2005, provided guidance to Federal
agencies on streamlining the delivery of benefits to victims of the Hurricanes.
While the memorandum provided that eligibility requirements be temporarily
waived, it also required implementation of post-payment controls to ensure
benefits only went to individuals who qualified for them.

To expedite payment of unemployment benefits to affected Hurricane victims,
LDOL established a period through November 19, 2005, designated as “Autopay”
where claimants were not required to comply with normal procedures of calling
the agency to report weeks that they continued to be unemployed. Instead,
during Autopay, LDOL automatically paid benefits to claimants who initiated a
DUA or UC claim as a result of the Hurricanes and had not informed LDOL of
any changes in their eligibility.

As of December 15, 2005, and again, as of June 30, 2006, LDOL matched its
hurricane-related claims against the National Directory of New Hires1 (NDNH),
which is a compilation of information from state agencies on newly hired workers.
As of July 12, 2007, 34 State Workforce Agencies (SWAs) utilize NDNH as a tool
to identify persons who obtain employment while simultaneously receiving DUA
or UC benefits, which could affect their eligibility for continued benefits. Eight
states have signed agreements with the U.S. Department of Health and Human
Services (HHS) in place, and Louisiana’s use of NDNH is pending.

LDOL used the results from the December 15, 2005, NDNH match--a 2,589 page
report representing over 20,000 claims--to confirm with employers whether
claimants earned wages during weeks in which they also received
unemployment benefits. Temporary staff was hired to perform most of these
duties, including manually tracking each employer’s response to the report. If an
employer returned a positive confirmation indicating a claimant had earned

1
 New Hire reporting is a process by which an employer reports information on newly hired employees to a
designated state agency shortly after the date of hire. The primary purpose for requiring the reporting of
new hires is to locate individuals with child support obligations; however, SWAs are allowed access to this
data to match against their UC and DUA claims.



                                                     2
wages, LDOL established an overpayment to recover any ineligible benefits.
However, when employers reported no wages were paid to a claimant, LDOL
considered the issue with a claimant’s eligibility to be resolved.

As of October 2006, LDOL provided us the status for 4,163 claims, or
approximately 20 percent of the NDNH match results. According to LDOL’s
manual count, 1,9572 claims had been identified and/or set up as overpayments,
and 60 were forwarded for investigation. In addition, 1,448 claims represented
non-responses from employers. Despite the lack of response from so many
employers, LDOL had conducted no further followup with these employers.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if LDOL:

1. effectively utilized NDNH to make timely determinations of claimants’ eligibility
   for continued hurricane-related unemployment benefits; and

2. timely notified claimants who received overpayments of their obligation to
   repay the overpaid benefits.

To determine the monetary impact of LDOL results from its initial December 2005
match with NDNH, we used LDOL’s payment files to quantify payments made to
matched claimants on or after February 1, 2006. (We selected this date in order
to evaluate the status several weeks after LDOL’s match in December 2005.)

To update LDOL’s December 2005 results from NDNH, we worked with LDOL to
submit hurricane-related DUA and UC claims to Louisiana’s Department of Social
Services to have claimants matched against NDNH through June 30, 2006. We
then compared the results generated from NDNH to the $902,897,467 in
hurricane-related DUA and UC benefits that LDOL had paid as of October 23,
2006 to further quantify potential overpayments.

To achieve our audit objectives, we relied on computer-processed data contained
in LDOL's claims system. We assessed the reliability of this data and found it to
be adequate except for a discrepancy that resulted from a backlog in LDOL’s
processing of an unprecedented number of transactions. We believe this
discrepancy will be resolved once LDOL eliminates the claims backlog.
Therefore, we feel that the data reported in LDOL's claims system is complete
with the exception of these unprocessed transactions.

We also relied on computer-processed data contained in NDNH. However, we
did not assess the reliability of this data because we had no means to do so.

2
  In addition to its manual results, LDOL provided us with a separate report from its claims system that
showed overpayments established for 3,451 Hurricane claimants, totaling $1,715,696, as a result of
receiving positive confirmations from employers.


                                                     3
Consequently, additional investigations are needed to determine whether
unemployment benefits identified as a result of our work were in fact paid on
ineligible claims.

Our audit period was based on benefits paid for the weeks ending September 10,
2005, through June 3, 20063. We conducted fieldwork at LDOL’s central
administrative offices in Baton Rouge, Louisiana, and analyzed LDOL’s
electronic claims files in our Denver Office, from January 2006 to February 2007.
In July 2007, we obtained from ETA the number of SWAs with agreements in
place to use NDNH.

RESULTS

LDOL did not effectively and timely utilize NDNH matches to make
determinations on claimants’ continued eligibility.

Results from the December 15, 2005 match were not timely and effectively
utilized to determine claimants’ eligibility for continued benefits. LDOL could have
used these matches to initiate investigations and temporarily stop benefit
payments based on ETA’s interpretation of section 303(a)(1) of the Social
Security Act in the Unemployment Insurance Program Letter 04-01 Interpreting
Federal Unemployment Insurance Law [11/28/2000] / Volume 65, Number 229,
Page 70939-70947, which states, in part:

        When a question concerning continued eligibility for benefits for a
        given week arises, the State agency conducts an investigation of
        the facts and makes a determination of eligibility or ineligibility.
        While such a determination is pending, the State agency need not
        issue payment for the week in question until it issues a
        determination regarding eligibility, provided the determination is
        timely. Sometimes the question of eligibility affects future weeks. In
        such circumstances, not issuing payment for these later weeks
        because of the earlier eligibility issue is acceptable until a timely
        determination is made.

Had LDOL used ETA’s authorized option to suspend payments, it could have
potentially avoided paying $13,409,575 to 11,723 claimants who reportedly
obtained employment subsequent to the Hurricanes hitting the Gulf coast area,
but on or before December 15, 2005. The table below shows the benefits paid to
these claimants for weeks beginning on or after February 1, 2006.




3
 Hurricane Katrina benefits were payable through the week ending June 3, 2006. Hurricane Rita benefits
were payable through the week ending June 24, 2006.



                                                  4
                                      DUA & UC Benefits Paid
                                   on or after February 1, 2006 to
                          Hurricane Claimants Reportedly Hired on/before
                                        December 15, 2005
                                                Number of
                           Program                               Benefits Paid
                                                 Claimants
                    Hurricane Katrina DUA               5,556       $8,607,444
                    Hurricane Katrina UC                5,949        4,526,678
                    Hurricane RITA DUA                      91          132,699
                    Hurricane RITA UC                     127           142,754
                    Total                              11,723      $13,409,575

LDOL’s June 30, 2006, updated match between its hurricane-related claims and
NDNH identified $51,180,655 in DUA and UC benefits that were paid to 35,6234
claimants after they reportedly obtained employment after the Hurricanes hit the
Gulf Coast Region. Of this amount:

      ¾ $15,596,394 was paid to 18,388 claimants during the Autopay period

      ¾ $35,584,261 was paid to 25,735 claimants after the Autopay period ended

Further investigation of claims paid after the Autopay period may show these to
be fraudulent since, after that point, claimants were required to certify their
continued unemployment in order to remain eligible for benefits.

LDOL had not timely notified claimants of their obligation to repay benefits
to which they were not entitled.

As of October 10, 2006, LDOL had identified and coded in its claims system,
$108,741,7165 in overpaid Hurricane-related unemployment benefits that it
intended to recover from claimants. However, limited resources have kept LDOL
from timely notifying claimants of their obligation to repay benefits to which they
were not entitled. Timely notification is a key factor as to whether these funds
will be collected in full.

LDOL has an obligation to identify persons who have received benefits for which
they were not eligible and recover those funds. A state’s responsibility regarding
payments made to those not entitled to DUA benefits is outlined in the Code of
Federal Regulations, Title 20, Section 625.14(a) and reads as follows:

           If the State agency of the applicable State finds that an individual
           has received a payment of DUA to which the individual was not
           entitled under the Act and this part, whether or not the payment
           was due to the individual's fault or misrepresentation, the individual
4
  This total does not separately account for the 8,500 claimants who received benefits both during and after
the Autopay period.
5
    In addition, LDOL also identified $5,862,548 in overpayments for non-Hurricane DUA and UC claims.


                                                     5
      shall be liable to repay to the applicable State the total sum of the
      payment to which the individual was not entitled, and the State
      agency shall take all reasonable measures authorized under any
      State law or Federal law to recover for the account of the United
      States the total sum of the payment to which the individual was not
      entitled.

Of the amount LDOL plans to recover from claimants, $5,925,024 should be
returned to ETA for benefits paid under the FEMA funding for DUA grants. To
comply with Federal policies, it is imperative that these funds be returned to ETA
on FEMA’s behalf in order for FEMA to reobligate these resources for other
regions affected by a disaster.

According to the Employment and Training Handbook, No. 356, Chapter IX,
Closeout:

      Once payment activity has ceased or the end of the disaster
      assistance period, it is important to close out the disaster as soon
      as possible. This is necessary because disaster funds are no-year
      funds and any unused state funds will be reobligated by FEMA for
      future disasters.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

   1. Work with LDOL to conduct investigations to determine whether
      $51,180,655 of DUA and UC benefits paid to those who reportedly
      obtained employment--according to NDNH matches--should be recovered;
      and ensure appropriate actions are taken for those claimants found to
      have fraudulently obtained benefits;

   2. Provide assistance and resources to LDOL along with other SWAs in
      establishing procedures to utilize data from NDNH in the most effective
      and efficient manner to mitigate the risk of overpayments and improve the
      prospects of cost recovery through early detection of claimants who are
      ineligible for benefits;

   3. Ensure that LDOL receives the resources and assistance needed to
      implement effective and efficient collection methods to recover overpaid
      benefits from their claimants; and

   4. Encourage the states to use the UIPL 01-04 option of suspending
      payments while eligibility determinations are pending.




                                        6
AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that ETA regional staff conducted an on-site
review of LDOL in March 2007 and, at that time, LDOL estimated it needed an
additional nine months to complete case investigations related to its NDNH data
matches. The regional staff will conduct a follow-up visit in fiscal year 2008.
ETA stated it has provided funds to states to implement data matching with
NDNH, and the regional staff has provided assistance in this matter, and to
LDOL specifically concerning its benefit overpayment recovery efforts.
Regarding the use of UIPL 01-04 to suspend benefit payments while eligibility
determinations are pending, ETA stated that the Computer Matching Agreement
between HHS and the states prohibits the suspension of payments while NDNH
information is verified. The Assistant Secretary’s response is included in its
entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendations
resolved. They will be closed upon receipt of documentation to support LDOL’s
and ETA regional staff’s actions taken to address the recommendations, as
described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing and documenting actions taken in response
to the recommendations.

If you have any questions concerning this Management Letter, please contact
David Williams, Regional Inspector General for Audit, in Dallas at (972) 850-
4005.

Attachment

cc:   Howard Radzely
      Acting Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                                       7
    ATTACHMENT




8
    ATTACHMENT




9
